No.
IN THE SUPREME COURT OF THE UNITED STATES
FRANK CONDEZ,
Petitioner,
v.
TOWN OF DARTMOUTH and others
Respondents,
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I hereby certify that the petition
for a writ of certiorari in the above entitled action contains 2,137 words, excluding
the parts of the petition that are exempted by Supreme Court Rule 33.1(d).
I declare under the penalty of perjury that the foregoing is true and correct.
Executed on December 12, 2019
Respectfully submitted,
/s/ Gregory V. Sullivan
Gregory V. Sullivan, Esq.
Malloy & Sullivan,
Lawyers Professional Corporation
59 Water Street
Hingham, MA 02043
(781)749-4141
g.sullivan@mslpc.net
Counsel for Petitioner

